<html>
<title> - FOLLOWING THE TRAIL OF U.S. TAXPAYERS' DOLLARS ABROAD: ON-BUDGET ASSISTANCE IN AFGHANISTAN</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]





   FOLLOWING THE TRAIL OF U.S. TAXPAYERS' DOLLARS ABROAD: ON	BUDGET 
                       ASSISTANCE IN AFGHANISTAN

=======================================================================

                                HEARING

                               BEFORE THE

                   SUBCOMMITTEE ON NATIONAL SECURITY

                                 OF THE

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 29, 2015

                               __________

                           Serial No. 114-19

                               __________

Printed for the use of the Committee on Oversight and Government Reform


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


         Available via the World Wide Web: http://www.fdsys.gov
                      http://www.house.gov/reform
                                    ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

94-837 PDF                     WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001                     
                      
                      
                      
                      
                      
                      
                      
              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                     JASON CHAFFETZ, Utah, Chairman
JOHN L. MICA, Florida                ELIJAH E. CUMMINGS, Maryland, 
MICHAEL R. TURNER, Ohio                  Ranking Minority Member
JOHN J. DUNCAN, Jr., Tennessee       CAROLYN B. MALONEY, New York
JIM JORDAN, Ohio                     ELEANOR HOLMES NORTON, District of 
TIM WALBERG, Michigan                    Columbia
JUSTIN AMASH, Michigan               WM. LACY CLAY, Missouri
PAUL A. GOSAR, Arizona               STEPHEN F. LYNCH, Massachusetts
SCOTT DesJARLAIS, Tennessee          JIM COOPER, Tennessee
TREY GOWDY, South Carolina           GERALD E. CONNOLLY, Virginia
BLAKE FARENTHOLD, Texas              MATT CARTWRIGHT, Pennsylvania
CYNTHIA M. LUMMIS, Wyoming           TAMMY DUCKWORTH, Illinois
THOMAS MASSIE, Kentucky              ROBIN L. KELLY, Illinois
MARK MEADOWS, North Carolina         BRENDA L. LAWRENCE, Michigan
RON DeSANTIS, Florida                TED LIEU, California
MICK MULVANEY, South Carolina        BONNIE WATSON COLEMAN, New Jersey
KEN BUCK, Colorado                   STACEY E. PLASKETT, Virgin Islands
MARK WALKER, North Carolina          MARK DeSAULNIER, California
ROD BLUM, Iowa                       BRENDAN F. BOYLE, Pennsylvania
JODY B. HICE, Georgia                PETER WELCH, Vermont
STEVE RUSSELL, Oklahoma              MICHELLE LUJAN GRISHAM, New Mexico
EARL L. ``BUDDY'' CARTER, Georgia
GLENN GROTHMAN, Wisconsin
WILL HURD, Texas
GARY J. PALMER, Alabama

                    Sean McLaughlin, Staff Director
                 David Rapallo, Minority Staff Director
  Andrew R. Arthur, Staff Director, Subcommittee on National Security
                   Sang Yi, Professional Staff Member
                    Sharon Casey, Deputy Chief Clerk
                   Subcommittee on National Security

                    RON DeSANTIS, Florida, Chairman
JOHN L. MICA, Florida                STEPHEN F. LYNCH, Massachusetts, 
JOHN J. DUNCAN, JR. Tennessee            Ranking Member
JODY B. HICE, Georgia                TED LIEU, California
STEVE RUSSELL, Oklahoma, Vice Chair  ROBIN L. KELLY, Illinois
WILL HURD, Texas                     BRENDA L. LAWRENCE, Michigan













                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on April 29, 2015...................................     1

                                WITNESS

The Hon. John F. Sopko, Special Inspector General for Afghanistan 
  Reconstruction
    Oral Statement...............................................     4
    Written Statement............................................     7

 
   FOLLOWING THE TRAIL OF U.S. TAXPAYERS' DOLLARS ABROAD: ON-BUDGET 
                       ASSISTANCE IN AFGHANISTAN

                              ----------                              


                       Wednesday, April 29, 2015

                   House of Representatives
                 Subcommittee on National Security,
              Committee on Oversight and Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 9:35 a.m., in 
room 2154, Rayburn House Office Building, the Honorable Ron 
DeSantis (chairman of the subcommittee) presiding.
    Present: Representatives DeSantis, Mica, Hice, Lynch, and 
Lawrence.
    Mr. DeSantis. The Subcommittee on National Security will 
come to order.
    Without objection, the chair is authorized to declare a 
recess at any time.
    Since 2002, the United States has appropriated more than 
$107 billion for relief and reconstruction in Afghanistan. 
These funds are provided to assist once Afghanistan in building 
its national security forces, promoting good governance, 
conduct development assist, and engage in counter-narcotics and 
anti-corruption efforts.
    For Fiscal Year 2016, the President has requested more than 
$5.3 billion in additional reconstruction funding for 
Afghanistan, consisting of over $1.5 billion for State U.S. 
Agency for International Development, USAID efforts and $3.8 
billion for the DOD to train, equip, and sustain the Afghan 
National Security Forces, which include the Afghan army and 
police.
    Congress created the Office of Special Inspector General 
for Afghanistan Reconstruction, SIGAR, to provide independent 
and objective oversight of Afghanistan reconstruction projects 
and activities. Two recent reports from SIGAR on personnel and 
payroll data have called into question how efficiently U.S. 
funds have been spent on the Afghan National Security Forces 
and how effective that funding has been. In a January 2015 
report, SIGAR found that the process used by the Afghan 
National Police for collecting attendance data, which forms the 
basis of all Afghan National Police personnel and payroll data, 
has ``weak controls and limited oversight.''
    To ensure that attendance data is correct, Afghan Police 
personnel are supposed to sign in and out on a roster daily. 
According to SIGAR, though, even these rudimentary safeguards 
are not followed. Instead, it was found that commanding 
officers have been recording and reporting patrolman attendance 
manually as part of daily food provision requirements. Because 
personnel receive a cash stipend to purchase food for each day 
they work, a lack of oversight controls could incentivize 
commanding officers to falsify officers' attendance to obtain 
this stipend.
    SIGAR found no examples of direct oversight during 
attendance data collection and reporting to ensure that such 
malfeasance did not occur, and police personnel could therefore 
collect pay for days that they did not work. Moreover, SIGAR 
determined that data systems used to store, access, transfer 
and use police personnel and payroll data contained incomplete 
and incorrect data and weak internal controls. Finally, not 
even the unique identification number issued to each member of 
the force is being used consistently or effectively to track 
attendance and to pay salaries.
    Similar issues were identified in a report SIGAR issued 
yesterday on payroll and personnel issues in the Afghan 
National Army. In that report, SIGAR found that the only 
control in place at the unit level to ensure accurate 
attendance reporting on a day-to-day basis, a roster that 
individual army and air force personnel sign daily, was not 
consistently used across Afghan National Army locations.
    Specifically, although two of the three units that SIGAR 
visited presented signed roster books, the third roster book 
did not contain such signatures. Rather, attendance was 
verified by checkmarks apparently entered by a single 
individual. Even where rosters were used as intended, 
Government officials did not observe the signing of the 
rosters, review the rosters for verification purposes, or 
reconcile them against other personnel or payroll data.
    SIGAR found that these weaknesses in Afghan National Army 
attendance data collection process could result in personnel 
being paid for days that they did not work. Further, it found 
that as U.S. and coalition forces draw down in Afghanistan, the 
U.S. Government will become even more dependent on the ability 
of the Afghan Ministry of Defense to verify the accuracy of the 
personnel and payroll data it collects. Unless and until the 
Ministry develops the capability to ensure and verify the 
accuracy of this data, SIGAR determined, ``there is a 
significant risk that U.S. funding for Afghan National Army 
salaries will be wasted or abused.''
    The payroll and attendance data collected by the Afghan 
National Security Forces has two purposes. First, it is 
collected to ensure that officers are paid for the days they 
work and are not paid for the days they don't. In addition to 
ensuring against corruption, accurate payroll data helps 
protect the American public's money by making it more likely 
that U.S. aid is spent appropriately.
    Of equal importance is the fact that the data is collected 
to assist the Afghan National Security Forces in assessing 
whether they have the manpower that they need to carry out 
their crucial mission of protecting the Afghani people and, by 
extension, American interests. SIGAR's findings call into 
question how effectively U.S. taxpayer dollars are being spent 
in Afghanistan and whether a different scheme for U.S. funding 
to the Afghan National Security Forces is needed to achieve the 
dual goals of protecting the Afghani people and advancing U.S. 
security interests in Afghanistan.
    The subcommittee will address these two issues with Mr. 
Sopko today.
    I now recognize the gentleman from Massachusetts, Mr. 
Lynch, the ranking member, for his opening Statement.
    Mr. Lynch. Thank you, Mr. Chairman. I would like to, first 
of all, thank you for holding this hearing to examine the 
recent audit reports issued by the Special Inspector General 
for Afghan Reconstruction on the accuracy of the Afghan 
National Security Forces data, and I would also like to thank 
Inspector General Sopko for helping the subcommittee with its 
work.
    As announced by President Obama on December 28, 2014, the 
U.S.-led international security assistance forces combat 
mission in Afghanistan has not only concluded after over 13 
years from its inception. During Afghan President Ashraf 
Ghani's recent visit to the U.S. last month, President Obama 
announced that the number of U.S. forces in Afghanistan will 
now remain at approximately 10,000 through the end of the 
fiscal year.
    The President noted that the majority of these U.S. forces 
are currently deployed in a training and advisory capacity in 
furtherance of the NATO-led mission, Resolute Support, that 
began on January 1st, 2015, approximately 1,000 U.S. special 
ops personnel supporting regional counter-terrorism operations 
as well.
    Given that additional training of Afghan National Security 
Forces is now our primary mission in Afghanistan, it is 
absolutely critical that the Afghan government provide the U.S. 
and our NATO partners with reliable and accurate data regarding 
the size and strengthen of the Afghan National Police and the 
Afghan National Army.
    As noted by Inspector General Sopko in his April 2015 
quarterly report to Congress, ``Numbers matter. In Afghanistan, 
some numbers have a life and death weight to them. Without 
reliable data on Afghan National Security Forces strength, the 
United States cannot determine whether the billions of dollars 
it has spent on recruiting, training, equipping, and sustaining 
the Afghan National Security Forces since Fiscal Year 2002 has 
been spent properly or accurately calculate what additional 
funding may be needed.''
    Precise data is essential to our determinations of the 
Afghan government's ability to provide adequate security for 
its citizens against the Taliban insurgency and attacks by Al 
Qaeda and other terrorist groups. Accurate data also provides a 
basis for U.S. and Coalition decisions on the pace of 
withdrawal and the scope of our counter-terrorism missions.
    Regrettably, the two recent audits conducted by Inspector 
General Sopko of personnel and payroll records provide good 
reason to doubt the accuracy of Afghan data. In particular, in 
January 2015, audit reports on the Afghan National Police found 
that there is no documentation that unit commanders are 
accurately reporting personnel attendance or that police 
personnel are receiving their full share of their salaries. 
Officials appointed by the Ministry of Interior could be taking 
as much as half of a policeman's salary.
    According to an audit report on the Afghan National Army 
released by the Inspector General just today, a daily sign-in 
roster is the only mechanism in place to collect National Army 
attendance data, and it is not used across army posts 
nationwide. In addition, the Ministry of Defense still 
calculates National Army salaries using a manual process that 
is highly susceptible to manipulation.
    Furthermore, the audit highlights the irregular use of 
National Army-issued identification cards. This is particularly 
troubling given the incidents of green-on-blue attacks in 
Afghanistan, most recently, and regrettably, on April 9th, when 
U.S. Army Specialist John M. Dawson, of Whitinsville, 
Massachusetts, was killed by an Afghan soldier in Jalalabad, 
and my prayers and thoughts are with his family.
    The absence of reliable data on the Afghan National 
Security Forces aggravates the potential for the waste, fraud, 
and abuse of U.S. taxpayer dollars. It also compromises the 
safety of our remaining U.S. and international troops in 
Afghanistan.
    Mr. Chairman, I look forward to examining the inspector 
general's various recommendations in his report on how to 
enhance the reliability of the critical data and yield the 
balance of my time.
    Mr. DeSantis. Thank you.
    I will hold the record open for five legislative days for 
any members who would like to submit a written Statement.
    We will now recognize our witness this morning. I am 
pleased to welcome the Honorable John Sopko, Special Inspector 
General for Afghanistan Reconstruction.
    Welcome, Mr. Sopko. Pursuant to committee rules, all 
witnesses will be sworn in before they testify. Please raise 
your right hand.
    Do you solemnly swear or affirm that the testimony you are 
about to give will be the truth, the whole truth, and nothing 
but the truth?
    [Witnesses responds in the affirmative.]
    Mr. DeSantis. The witness answered in the affirmative.
    Thank you. Please be seated. In order to allow time for 
discussion, please limit your testimony to 5 minutes. Your 
entire written Statement will be made a part of the record. You 
are now recognized for 5 minutes.

  STATEMENT OF THE HONORABLE JOHN F. SOPKO, SPECIAL INSPECTOR 
             GENERAL FOR AFGHANISTAN RECONSTRUCTION

    Mr. Sopko. Thank you very much, Chairman DeSantis, Ranking 
Member Lynch, and members of the subcommittee. I am pleased to 
testify today about SIGAR's recent work on the Afghan National 
Security Forces personnel and payroll systems, and the Afghan 
government's capacity to manage and account for U.S. on-budget 
assistance.
    Over the past 14 years, the United States has spent 
approximately $1 trillion and has lost thousands of lives to 
build a secure and stable Afghanistan that will never again be 
a safe haven for terrorists. Of that amount, almost $110 
billion has been invested to create a capable and competent 
Afghan government that can provide security and basic services 
to its people. More importantly, the United States has 
committed to spend billions more over the years to come to 
sustain the Afghan government we helped create.
    Properly overseeing these funds is essential to ensuring 
that this vast investment in Afghanistan does not go to waste. 
Every dollar we spend now on training, advising, and assisting 
the Afghans, as well as, and I would say more importantly, on 
oversight should be viewed as insurance to protect our 14-year 
investment. We at SIGAR are concerned that managing and 
overseeing this massive ongoing effort is being left to a 
decreasing number of U.S. military and civilian personnel in 
Afghanistan.
    With limited resources to conduct the reconstruction 
mission, transparency and oversight are more important than 
ever, especially now that we appear to have a willing partner 
in the new National Unity Government of President Ashraf Ghani 
and Chief Executive Officer Abdullah Abdullah.
    Because of our draw-down, U.S. decisionmakers and 
implementing agencies have become more reliant on obtaining 
accurate and reliable data on the reconstruction effort 
produced by the Afghan government. This includes basic 
information on the numbering capacity of Afghan soldiers and 
police.
    Unfortunately, as my written testimony highlights, neither 
the United States nor our Afghan allies truly know how many 
Afghan soldiers and police are available for duty or, by 
extension, the true nature of their operational capability. 
Such basic information is especially critical now, as we enter 
the 2015 fighting season with the Afghans being fully 
responsible for their own security.
    The importance of accurate and reliable personnel data to 
the United States and Afghan governments cannot be overStated. 
Every professional standing army or police force begins each 
day by identifying how many personnel are present for duty and 
what their capabilities are. In Afghanistan, this data will 
also determine the overall amount of U.S. funding for the ANSF.
    I think The New York Times story, that broke just before 
noon, about the Afghan military operations and U.S. military 
operations highlight the importance of knowing what is the 
capability of the Afghan forces.
    As the United States continues to shift its reconstruction 
funding to on-budget assistance, it is also important that this 
assistance be based on accurate and reliable data, and that the 
Afghan government is able to manage and account for such funds. 
Again, SIGAR's work shows that the Afghan government still 
lacks the capacity to do so.
    The withdrawal of U.S. military and civilian personnel, as 
I said, is making this even more challenging to manage and 
oversee the reconstruction effort. Likewise, audit and law 
enforcement agencies have substantially reduced the number of 
staff they have based in Afghanistan. For example, the other 
IGs in law enforcement agencies have reduced their in-country 
staff by 45 percent, and may reduce it further as the State 
Department seeks to ``normalize'' civilian personnel staffing 
in Afghanistan. By mid-summer 2015, four other U.S. 
investigative agencies have indicated they intend to completely 
leave Afghanistan.
    Since I was appointed Special Inspector General almost 3 
years ago, I believe SIGAR has conducted highly effective, 
productive, and independent oversight. But our ability to do so 
may now be at risk. Just this past week, the U.S. embassy in 
Kabul informed SIGAR that because of the State Department 
requirement to normalize or right-size the civilian presence in 
Afghanistan, SIGAR must reduce its staff by 40 percent, from 42 
to 25 deployed positions by the summer of 2016. SIGAR was told 
just Monday, at a senior leadership meeting at our embassy in 
Kabul, by a senior member of the embassy team, that that cut 
was non-negotiable. To be more precise, do not come back with 
an alternative number.
    We were not consulted about this number, nor were we given 
any explanation for how this arbitrary number was determined.
    Now, I am concerned about the impact these cuts will have 
on SIGAR's mission and on the U.S. reconstruction mission on a 
whole, because SIGAR is the largest oversight body in 
Afghanistan. While the U.S. reconstruction effort may have 
declined, compared to its highpoint, Afghanistan is still the 
largest single recipient of U.S. foreign assistance, and is 
projected to remain so for years to come. In other words, while 
our troops may be coming home, the checks will still be going 
over there for some time to come.
    Thank you, Mr. Chairman, and I look forward to your 
questions.
    [Prepared Statement of Mr. Sopko follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
  
    
    Mr. DeSantis. Thank you, Mr. Sopko.
    The chair now recognizes himself for 5 minutes.
    To what extent does the U.S. Government have oversight over 
the U.S. funding that is paid to the Afghan National Security 
Force personnel?
    Mr. Sopko. Well, our oversight is the two audits report, 
and I would highlight that the appendices at the end that 
actually lists every U.S. agency and international agency and 
their weaknesses is very limited. We have no visibility, 
really, below what they call the core level.
    So at the brigade, the kandak, and the company, we have no 
visibility; and we have limited visibility even at the corps 
level. I think we are trying as hard as we can. I think General 
Campbell and General Semonite and his team and CSTC-A are 
trying, but they have very limited resources and they have 
indicated to us they don't have enough people.
    Mr. DeSantis. So at least for those subordinate units, the 
U.S. Government, we are basically entirely relying on the 
government of Afghanistan to oversee the accuracy and 
reliability of the payments?
    Mr. Sopko. Accuracy, reliability, and the capabilities of 
the troops. We don't have any visibility at the company level, 
the kandak level, brigade level; and the last time I was in 
Afghanistan I was told by some of the CSTC-A officials that 
they are actually being told don't even look down there.
    Mr. DeSantis. So no U.S. personnel involved in taking 
attendance, overseeing any payments?
    Mr. Sopko. No. No, sir.
    Mr. DeSantis. Does the U.S. military in Afghanistan have 
the resources it needs to help the Ministry of Interior and the 
Ministry of Defense improve their personnel and payroll 
systems, and to better account for on-budget assistance 
funding?
    Mr. Sopko. I would say based upon our body of work, and 
based upon my observations, and based upon Statements made to 
me by senior military officials and others, they do not have 
enough resources. Now, this doesn't mean you have to change the 
number of troops on the ground; you just have to think out of 
the box. Maybe bring in people on TDY, maybe utilize better 
resources. But as of now they don't.
    Mr. DeSantis. With the pending cuts to your staff due to 
the ``right-sizing'' that you alluded to, what do you estimate 
will be the impact on your ability to conduct oversight?
    Mr. Sopko. It will be adversely impacted, particularly now, 
when we have a willing party in the palace. We are bringing 
cases, working very closely with General Semonite, bringing 
fraud cases to the attention of the president of Afghanistan 
and the CEO. They are willing to work with us, and now our 
resources will be limited. I can't say how many audits will be 
lost or how many investigations, but the on-the-ground truth is 
now we have an opportunity to work with a willing partner, and 
for some reason we have a decision being made to make 
Afghanistan embassy normal.
    Now, sir, I know you have been to Afghanistan; I know some 
of the other members. And this is not meant as being 
derogatory. Afghanistan is not normal. This isn't Norway. This 
isn't Germany. This isn't Brazil. This is a country where there 
is a war going on; we have an active insurgency; we have 
troops' as well as American civilians' lives being put on the 
line. But we have a willing partner who wants to help and needs 
our help. So that is my concern right now with this 
normalization of the chief mission, that this may not be a wise 
decision. Very risky.
    Mr. DeSantis. When we had the Afghan president address the 
joint session, some of my constituents would ask, well, is this 
a lot better than Karzai. So in your experience, at least in 
terms of the ability to have accountability, you do think that 
there is a significant improvement?
    Mr. Sopko. I do, sir. And I am not Pollyanna-ish about 
this. I follow the lines of President Reagan: trust but verify. 
But this president, when we uncovered a billion dollar contract 
in which $200 million was being stolen on direct assistance 
because of fraud and because of bribery and because of actually 
tampering with the contracting, we brought the CSTC-A.
    CSTC-A, which is the military command, we went in and the 
president demanded a meeting, a briefing, and he personally got 
briefed on it. He fired generals; he ordered a new commission 
to look at it. But more importantly, he ordered a commission to 
look at changing the entire way they do contracting. This is 
good news. I am cautiously optimistic because of the new unity 
government.
    And the same thing applied to Abdullah Abdullah, who, the 
last time I was there, he asked to be briefed by me and my 
staff. My staff are working very closely with the new 
government. We had a very little relationship, very small 
relationship with the prior government.
    Mr. DeSantis. Great. Well, thank you for that.
    My time is expired and I will now recognize the ranking 
member, Mr. Lynch, for 5 minutes.
    Mr. Lynch. Thank you, Mr. Chairman.
    I want to thank you again, Inspector General Sopko. You are 
doing some great work here. Although I have to say it is very 
troubling to read your reports, the lack of accountability 
here. According to your report, and I believe it is correct, we 
have spent over $60 billion training and equipping and 
maintaining national Afghan security forces since we went into 
Afghanistan. Is that correct?
    Mr. Sopko. That is correct, sir, approximately $60 billion.
    Mr. Lynch. OK. Now, let's start with the Afghan National 
Army first. Can you tell me how many Afghan National Army 
personnel we have trained?
    Mr. Sopko. I can't. We don't know. There is no way to give 
you that number.
    Mr. Lynch. How about Afghan National Police?
    Mr. Sopko. We don't know. There is no way to give the 
number because the records are so bad. We can tell you what the 
top level numbers are; it is 167,000 for the ANA, which is the 
National Army, and 155,000, approximately, for the police.
    Mr. Lynch. That is standing right now?
    Mr. Sopko. Well, that is what the plan is that is standing 
right now, but we have no idea how many have been trained.
    Mr. Lynch. Well, we have been doing this for 13 years, so 
can you tell me the attrition rate? For instance, in Iraq, 
because we get a quarterly report and we track this, we know 
that we have spent $25 billion in Iraq and we have trained up 
938,000 Iraqis for border patrol, police, and military. Now, 
you spent more than twice that in Afghanistan. Different 
circumstances, obviously, but you cannot tell me how many 
people we have trained?
    Mr. Sopko. Sir, let me just qualify. I didn't spend that.
    Mr. Lynch. Oh, no, no, no. Of course you didn't.
    Mr. Sopko. I wish I had a budget that big.
    Mr. Lynch. No, no, no. I apologize. I apologize. Our 
Country has spent over $60 billion in taxpayer money doing all 
this training and equipping and maintaining them. And you are 
telling me today, because of the way we account for things over 
there, you can't tell me how many folks we have trained?
    Mr. Sopko. I will check with my auditors, who are smarter 
than I am, but I think that number is beyond our capability.
    [Pause.]
    Mr. Sopko. No, we can't.
    Mr. Lynch. OK. All right. That is sad. That is sad. But 
that is the way it is. I don't doubt your answer, I don't. And 
on top of this, I know that a number of weeks ago we had a 
little bit of a situs with General Campbell in Afghanistan 
because he wanted to keep some of the reports classified. We 
had been getting these reports on the amount of money spent and 
number of people trained up, and we had been getting those 
regularly from Iraq and fairly regularly from you as well, and 
your predecessor as well, and then General Campbell didn't want 
to give us that information anymore. That is No. 1.
    I know we had a back and forth, and now they realize they 
made a bad decision and they have reversed that, and now they 
are going to supposedly continue to give us this information. 
He said the reason I wanted to keep it classified and not tell 
us or the American people was that he thought the enemy might 
get ahold of it, how much money we are spending over there, and 
that would weaken security. So now he has agreed that he is 
going to give us that information.
    But, in addition to that, now he is reducing the number of 
personnel with your group, from 40 to 25, is that correct?
    Mr. Sopko. It is not General Campbell; this is coming from 
the State Department, because we actually fall under Chief of 
Mission rules when we are in State. So, no, it is not General 
Campbell.
    Mr. Lynch. OK.
    Mr. Sopko. We are working very closely with his team.
    Mr. Lynch. But there will be less people tracking this 
information for us, doing oversight?
    Mr. Sopko. That is correct, sir.
    Mr. Lynch. And just so you know, Congress is also subject 
to limitations getting in there now, as well, so we are doing 
less oversight because of the limitations of assets there, we 
are told. So we can't do that oversight anymore. That is a 
troubling development. With the amount of money we are spending 
over there, it is a disgrace that we don't have an accountable 
system. I think a lot of this money is being stolen.
    We are having a fight in Congress right now over the budget 
about how much money our overseas contingency operations should 
get, and here is all this money being stolen. I commend you on 
your work. We just have to figure out a way to stop this. Maybe 
it is coming to a point where we just stop all the funding 
going over there, and that is the way we solve this.
    I yield back.
    Mr. Sopko. Could I respond, Mr. Chairman?
    Mr. Hice [presiding]. Yes, sir, please.
    Mr. Lynch. Please.
    Mr. Sopko. Mr. Lynch, my only concern about that, and I can 
understand your frustration, the reality of the situation on 
the ground is, if we stop funding, probably the Afghan National 
Security Forces will collapse, the Afghan government will 
collapse, and the entire $1 trillion investment will be lost. 
So I caution you, sir, on that.
    Mr. Lynch. We will visit that again, but thank you. I 
appreciate that.
    Mr. Hice. The gentleman yields back.
    The chair will now recognize himself for 5 minutes.
    Along these lines of the attendance records that you have 
referenced a few times, this certainly goes far beyond just 
mismanagement of taxpayer dollars. There is obviously a lot at 
stake in all of this figuring. When the U.S. and Afghan 
officials are planning offensive or defensive military 
operations and they have inaccurate numbers with which they are 
working with in terms of personnel and whatever location they 
are, what are the national security implications?
    Mr. Sopko. Well, the most serious implication would be that 
a corps or a kandak or brigade would be a hollow brigade that 
doesn't really exist. And I can only allude to, although it is 
not a totally exact comparison, but to what happened in Iraq, 
where it was discovered that those were hollow brigades and 
that a lot of the troops were ghost, they didn't exist; they 
were created out of thin air so that the officers could steal 
the salary and steal everything else. So I assume that is the 
biggest concern that we would have and you would have, and 
General Campbell would have.
    The other concern is if we don't know who is showing up, we 
don't know what their qualifications are. Are they medics? Are 
they trained medics? Are they literate? Are they weapons 
specialists and all that? They may just not exist.
    And you know as well as I do, if you are in the military, 
you have a roll call every morning. Well, we don't have basic 
roll call. We don't know who shows up at that roll call. And 
the same applies to the police.
    I know we have incidents right now in Baltimore. I am 
certain every morning in Baltimore there is a roll call in 
every one of those precincts so the chief of the police, the 
station precinct knows who is there. We don't know in 
Afghanistan.
    Mr. Hice. Well, obviously, the results of that could be 
enormous, and you referenced the trillion dollar investment. 
How is the Afghan National Security Forces operating right now, 
in this season, without U.S. military support, are they 
holding?
    Mr. Sopko. I am probably not the best person to answer 
that, but on my latest meetings over in Afghanistan we had 
positive responses from General Campbell on their operations. 
But I am not an expert and we don't have the capability to 
actually do that assessment.
    But apparently they had a very good or pretty good 
operation in Helmut. They now are up north in, I believe, the 
Kunduz Valley and doing an operation. I don't know how well 
they are doing, I can't really tell you. There was some 
newspaper articles recently about that from the local press 
which gave you mixed results. And I think The New York Times 
article actually talked about that we may be coming back in to 
help the Afghans.
    This is an important year, sir. I can just say that.
    Mr. Hice. I would certainly agree with you. You mentioned 
also fraud and bribery. Just how deep is the corruption?
    Mr. Sopko. Oh, I think the corruption is endemic in the 
country. I think President Ashraf Ghani recognizes it, and the 
CEO, and they are trying to do something about it, and that is 
why it is so critical now to be working with that government. 
We actually have a willing partner for a change, so we are 
hopeful that more can be done. But it is an overwhelming task.
    Mr. Hice. So with the corruption, though, that is there, 
although there appears to be attempts to correct some of it, 
can they be trusted to conduct oversight of salary payments, 
attendance, that type of thing?
    Mr. Sopko. Well, that is why we are encouraged that General 
Semonite and his team are trying to design a system that will 
protect the money and protect the contracts, and that is why we 
are encouraged that we are working with General Semonite on our 
team with the palace on trying to design contracts and design a 
system that can make a difference.
    Mr. Hice. Are we talking an electronic system?
    Mr. Sopko. Electronic systems where we can--I was very 
encouraged. Yesterday my staff received a 4-hour briefing from 
a member of the Pentagon. They finally decided they have heard 
us and they are bringing in experts who know how to design H.R. 
systems. They have never done that before.
    Basically, General Semonite and his team have been doing 
the best they can, but they are war fighters. We finally have 
convinced the Pentagon to devote the resources to design an 
H.R. system. This should have been done years ago. They didn't. 
Well, now we have an opportunity and a willing government to 
respond, so I am encouraged by that.
    Mr. Hice. Well, you would think as long as the U.S. is 
making so many of the payments for personnel and so forth, 
that, with the money flow going in, they would want that 
relationship to be healthy and that they would want to address 
some of the abuse, the fraud, and that type of thing. Is that 
an accurate assessment?
    Mr. Sopko. Yes. The new government is interested in that, 
and they have not only spoken on it, but actually carried out 
some deeds that we are impressed with. So, again, trust but 
verify. But at least with the National Unity Government we have 
somebody who is very willing to change the way things have 
worked in Afghanistan for a number of years.
    Mr. Hice. All right, sir, thank you. My time has expired.
    The chair will now recognize the representative from 
Michigan, Mrs. Lawrence, for 5 minutes.
    Mrs. Lawrence. Thank you, Mr. Chair.
    Thank you, Mr. Sopko, for being here today. Ensuring that 
the daily attendance of Afghan police and military personnel is 
collected and recorded in an accurate manner is essential. I do 
want to say about your Statement that an H.R. system is put 
into place, my career prior to coming here to Congress involved 
almost 30 years in HR. So I find it unacceptable and hard to 
understand how we are paying people without having an H.R. 
system that validates who we are paying.
    But with that being said, we know we can't have an 
effective personnel and payroll system if we don't know who 
showed up for work, simple roll call, and how often they were 
there. You agree, you made that Statement. So let's look at the 
ANA signature reporting for a moment.
    In the report being released today, SIGAR found that the 
only control in place at the unit level to ensure accurate 
reporting on a day-to-day basis was a sign-in roster. Do I have 
that correct?
    Mr. Sopko. That is correct, ma'am.
    Mrs. Lawrence. But this roster was not used by everyone. As 
I understand it, officers used it, but enlisted personnel did 
not.
    Mr. Sopko. That is correct.
    Mrs. Lawrence. OK. I also understand that SIGAR found that 
the ANA-issued identification numbers are not consistently used 
to track attendance. Is that correct?
    Mr. Sopko. That is correct also, ma'am.
    Mrs. Lawrence. But is it a fact that all of the personnel 
are actually issued an identification number?
    Mr. Sopko. We don't know for sure.
    Mrs. Lawrence. OK. So I know that SIGAR visited two 
military units and reviewed their roster books. I understand 
what you found regarding the lack of oversight and weakness in 
data collection was concerning, and you have kind of outlined 
it. These weaknesses in attendance data collection process 
could result in personnel being paid our Federal tax dollars, 
being paid for days, for work that didn't happen either without 
knowledge of a supervisory personnel.
    Make me understand and State again how can we pay someone 
and the supervisory personnel is not connected with that 
payment. Can you explain that to me?
    Mr. Sopko. Well, there are multiple payroll systems; there 
are multiple electronic systems that don't talk to each other. 
We assume if you are an employee you have an ID card.
    Mrs. Lawrence. Yes.
    Mr. Sopko. Well, it turns out that they are not all issued 
cards; the cards aren't always put into the system. It also 
turned out that they have never collected any of the cards of 
the people who have left. And that is serious not from a 
security point of view, which I think the chairman alluded to, 
but you have people walking around with ANA Army ID cards and 
police ID cards in the country, meaning you can sign them up 
and collect.
    It is hard to explain how messed up this system is. If you 
look at the appendices, we listed--I am not trying to defend 
the system. This is something that has been identified going 
back years by the GAO, DOD IG, State Department IG, we have 
done it three times. Finally I think we have gotten their 
attention. By we, I think the Afghans want to fix it because I 
think they are concerned. I can't speak for the president, but 
I believe he is concerned that he doesn't know how many 
soldiers he has out in such a province.
    Mrs. Lawrence. Now, I have only a few minutes, so can you 
please tell me how the recommendations that are being made with 
the subcommittee would improve things? Can you tell me your 
sense of expectation?
    Mr. Sopko. Essentially all of our recommendations to DOD 
have been accepted and they are moving on them, so we are 
encouraged by that. Our recommendations to you and the 
committee is to keep watching DOD, and bring us back and bring 
them in, if necessary, to see if they are implemented. They 
have promised to do this. Trust but verify. Let's see if they 
do it.
    Importantly, I think you have to look at the staffing and 
capabilities of our military in Afghanistan and whether they 
have adequate resources to do this. When we did our audits, we 
talked to our military, and they basically told us they don't 
have the bodies to do adequate oversight. That is why we are 
doubly concerned that the largest oversight body of the U.S. 
Government is being cut by 45 percent in Afghanistan, by the 
State Department, without consultation.
    And the other issue is we are an independent inspector 
general. Since 1978, independent inspectors general determined 
their staffing level and where they are located. Now we get an 
edict from the State Department that basically says this is 
your number, live with it.
    Mrs. Lawrence. I want to tell you thank you so much for 
your testimony, and you have my commitment that I will join 
with the members of this subcommittee to keep an eye on it. 
Thank you.
    I yield back my time, Mr. Chairman.
    Mr. Hice. Thank you. The gentlelady's time has expired.
    The chair will now recognize the ranking member from 
Massachusetts, Mr. Lynch, for five more minutes.
    Mr. Lynch. Thank you, Mr. Chairman.
    Maybe in this overseas contingency operation we can put an 
amendment in that would maintain the current level of oversight 
by the Special Inspector General in Afghanistan. We could try 
to do something like that.
    Mr. Sopko. We would appreciate any help you can provide us, 
sir. And I am certain my other brethren and the other IGs would 
appreciate that help too.
    Mr. Lynch. OK. Absolutely.
    The $61 billion that the American taxpayer has paid so far, 
and that is as of March 31, 2015, does that include the $900 
million that was stolen out of Kabul Bank? That was also for 
paying personnel; that was salaries.
    Mr. Sopko. Well, technically, that money was generated by 
the Afghans.
    Mr. Lynch. That is the third version I have heard. I 
actually went to a classified briefing in Afghanistan. I have 
been there 14 times, I think, but one of my earliest ones after 
they robbed the bank, this is the president's brother and the 
vice president's brother, this is when the $900 million went 
missing, I was told at a classified briefing then that none of 
that was U.S. money. Then, a couple years later, I was told all 
of it was U.S. money. So maybe you can enlighten me a little 
bit on whose money was that.
    Mr. Sopko. Well, the best way to explain it is in one of 
our charts we talk about how we lose visibility over----
    Mr. Lynch. Yes. I only have 3 minutes.
    Mr. Sopko. OK. I will do it quickly. Once the money goes to 
salaries, it is the Ministry of Finance, it is no longer U.S. 
money.
    Mr. Lynch. They are not getting it from tax money; they are 
getting it from donors.
    Mr. Sopko. I agree totally with you, sir. They only raised 
$2 billion, and it cost $8 to $10 billion to keep that country 
afloat. So it is mainly being supported by us.
    Mr. Lynch. OK.
    Mr. Sopko. That is why it is so critical. And I know I 
don't want to take your time, Mr. Lynch.
    Mr. Lynch. You already have, my friend.
    Mr. Sopko. OK.
    Mr. Lynch. Look, look, here is my problem. When we did this 
in Iraq, we did the exact same thing and we were having folks 
walk away with weapons, sell their weapons to militant groups. 
We came up with a system in Taji, the weapons depot, where we 
took a picture of the soldier when they came out of training, 
we did a retina scan so they couldn't fool us. We had a good 
ID. We had the number of his weapon assigned to that; we had an 
ID card that we had. And we knew who these folks were.
    Why did we get away from that in Afghanistan?
    Mr. Sopko. I don't have an answer, sir, but we don't have 
that visibility anymore.
    Mr. Lynch. It would seem to me that it would be pretty easy 
to measure the scale of robbery in Afghanistan of U.S. taxpayer 
money by just taking four or six units. You have the payrolls 
that are coming in, so just pick six or eight of them, go in 
there and do actual ID on them and watch where the checks go. 
And once you realize that there are a whole lot more checks 
being paid out in relation to how many people are actually on 
the job, you will know how much you are being ripped off.
    I think we did one pilot program a while back. I don't know 
why we haven't continued that, but it is pretty depressing that 
we are losing good Americans like the young man that got killed 
a couple weeks ago from Massachusetts, Mr. Dawson, and others. 
We are trying to do the right thing here and we are being 
robbed blind, as far as I can tell from the reports that you 
have provided.
    Do you have any suggestions on what we can do? I mean, I 
know you don't want to cutoff funding, but it would seem that 
if we are paying all this money, the American taxpayer, we have 
a little bit of leverage here. In other words, we are not going 
to pay the money unless we have an accountable system where we 
can actually track where the money goes, because I think a lot 
of these--look, you are absolutely right when you tell me that 
corruption is endemic. It is absolutely the rule, it is the 
rule in Afghanistan. It is the rule. Corruption from top to 
bottom, inside out, backward forwards. Total corruption.
    We have to try to operate within that system, but not be 
robbed blind. We have to be a little bit more responsible, I 
think. And CSTC-A, as far as I am concerned, they are complicit 
in this because they haven't put in place a system where we can 
catch these people, or at least discourage the level of theft 
that is going on. It is extremely discouraging, to say the 
least.
    Mr. Sopko. Well, Mr. Lynch, can I respond, and can I take 
time from somebody else to respond? Because I have been 
stealing his time already, Mr. Chairman.
    I think you are directly on point. But the thing we can do 
is conditionality. We can condition. You are right, we have the 
piggy bank. I have been harping on conditionality for 3 years. 
I was originally told we could never do that, but CSTC-A is 
now, we have a new team in there which is doing conditionality. 
And when I met with the president of Afghanistan, he said he 
believes in conditionality; he will go along with 
conditionality. So the reality on the ground has changed a 
little bit, and that is why I am cautiously optimistic.
    I am usually Dr. Doom, but I am cautiously optimistic. That 
is why it is counterintuitive to now cut oversight, to cut our 
resources to the bone in the State Department, at AID, as well 
as with the military, who have to oversee all this money.
    The Secretary of Defense just announced he wants to 
increase our support for the military in Afghanistan by 50 
percent, a 50 percent military increase. Well, that means more 
money, more guns, more contracts. You are not increasing CSTC-A 
at all. So that is the disconnect.
    You know, we can't do programs by press release, and that 
is the problem here.
    Mr. Lynch. Mr. Chairman, you have been very generous and 
indulgent, and I appreciate that. Thank you.
    Mr. Hice. Thank you very much.
    Votes have been called, so we are going to need to hurry 
up. I do have another couple of quick questions, if you could 
be quick on your responses.
    Are you familiar with the new embassy construction project?
    Mr. Sopko. Yes.
    Mr. Hice. OK. From what I understand, there are ballooning 
costs taking place. There are a thousand desks, for instance, 
in that embassy, according to the GAO's briefing last year. And 
yet you described a moment ago 40 percent cuts. How do we 
equalize this? Is there a way to?
    Mr. Sopko. There is a way to equalize it, but I think you 
have to do it smartly. I think putting a number out of the air 
and dictating it is not the way you do this. That is not the 
way you would do it in business. I don't know why we are doing 
it in Afghanistan, by pulling a number, not just for me, but 
for everybody else, and saying design a program around it. We 
should look at what our program needs are and then design the 
number of bodies to fit that.
    Mr. Hice. How does this fit with our oversight over our 
direct assistance?
    Mr. Sopko. The building, sir?
    Mr. Hice. Yes, the whole complex.
    Mr. Sopko. Oh, the complex? I will be honest with you. That 
complex is something we haven't looked at; that is a State 
Department inspector general's job to look at that. I think he 
is actually reviewing the construction there, but I don't know.
    Mr. Hice. OK. Well, I know that you are an oversight body, 
but what type of mechanisms would you recommend to have 
stricter control with what is happening here? Do you have 
recommendations?
    Mr. Sopko. I am happy to provide them to you. Stricter 
controls for the State Department?
    Mr. Hice. U.S. dollars that are provided for direct 
assistance.
    Mr. Sopko. Well, for direct assistance, sir, I think we 
have to use conditionality. We have to design the programs 
realizing we are dealing with a corrupt regime, so we have to 
have people in place to review them. If we don't get access to 
records, we don't get access to facilities, then I think 
seriously we should consider cutting the program. And I think 
that is what CSTC-A is starting to do; if they don't see the 
Afghans living up to it, they are cutting some of the money. I 
think that is critical to do.
    But you have to have somebody there to see and verify 
whether they are doing what they are doing. So if you cut all 
the oversight staff, or gut them, or gut all the CSTC-A staff, 
or gut the AID and State staff, then how are you going to know 
if you are getting the money stolen or not?
    Mr. Hice. OK, very good. Well, listen, I want to thank you 
for your witness today and for appearing before us. If there is 
no other business, without objection, the subcommittee stands 
adjourned.
    [Whereupon, at 3:25 p.m., the subcommittee was adjourned.]

                                 [all]
</pre></body></html>
